IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020

LEOBARDO BARRAZA, )
)
Petitioner, ) On Petition for Writ of
) Certiorari to the United
vs. ) States Court of Appeals
) for the Eighth Circuit
UNITED STATES OF AMERICA, )
)
Respondent. )
AFFIDAVIT OF FILING

State of Missouri )
Ss
City of St. Louis)

Comes now Kevin C. Curran, being first duly sworn upon his oath, deposes
and states:

1. Tam an attorney of record for Petitioner.

2. On this 16th day of July 2021, I filed Petitioner’s Petition for a Writ of
Certiorari plus its Appendix, Motion to Proceed In Forma Pauperis, Entry of
Appearance, Affidavit of Filing, plus this Proof of Service, with the Supreme Court
of the United States by depositing an envelope containing these documents with a
third-party commercial carrier for delivery within three days to:

Supreme Court of the United States

1 First Street N.E.
Washington, DC 20543
Further affiant sayeth not.

Respectfully submitted,

C. CURRAN
Assistant Federal Public Defender
1010 Market, Suite 200
St. Louis, MO. 63101
(314) 241-1255
Fax: (314) 421-3177
ATTORNEY FOR PETITIONER

SUBSCRIBED AND SWORN TO before me this Ith day of July 2021

NOTARY PUBLIC

My commission expires:

 
